 DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


        Review of Allegations Regarding
       San Francisco International Airport




            Office of Audits of Audits


               Office of Audits

OIG-07-04                          October 2006
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                       October 26, 2006

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibility to promote economy, efficiency, and effectiveness within the department.

This report assesses how security incidents have been identified and reported at San Francisco
International Airport (SFO) and whether those procedures are consistent with Transportation
Security Administration (TSA) policy. It also assesses whether and to what extent covert security
testing was compromised at SFO. The report is based on interviews with employees and officials of
relevant agencies and corporations and a review of applicable documents.

The recommendations contained in this report have been developed to the best knowledge available
to us, and have been discussed in draft with appropriate management officials. It is our hope that
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations


Executive Summary ........................................................................................................................... 1

Background ......................................................................................................................................... 2

Results of Review ............................................................................................................................... 4

    SFO Management Generally Complied With TSA Procedures When Identifying and Reporting
      Security Incidents...................................................................................................................... 4
    Recommendation ........................................................................................................................... 7
    Management Comments and OIG Analysis................................................................................... 7
    Covert Security Testing at SFO Was Compromised ..................................................................... 8
    Recommendation ........................................................................................................................... 9
    Management Comments and OIG Analysis................................................................................... 9

Appendices
     Appendix A: Purpose, Scope, and Methodology....................................................................... 11

     Appendix B: Management Comments to the Draft Report ....................................................... 13

     Appendix C: Chronology of Events........................................................................................... 17

     Appendix D: Major Contributors to this Report ........................................................................ 18

     Appendix E: Report Distribution ............................................................................................... 19


Abbreviations
    AFSD              Assistant Federal Security Director
    ATO               Airport Task Order
    ATSA              Aviation and Transportation Security Act
    AVO               Aviation Operations Directives
    BOA               Basic Ordering Agreement
    CAS               Covenant Aviation Security
    DFSD              Deputy Federal Security Director
    DHS               Department of Homeland Security
    FSD               Federal Security Director
    OIAPR             Office of Internal Affairs and Program Review
    OIG               Office of Inspector General
    PP5               Private Screening Pilot Program
    PARIS             Performance and Results Information System



                                       Review of Allegations Regarding San Francisco International Airport
Table of Contents/Abbreviations


 PMIS   Performance Measurement Information System
 SCC    Screening Control Center
 SFO    San Francisco International Airport
 SPP    Screening Partnership Program
 TIP    Threat Image Projection
 TSA    Transportation Security Administration
 TSOC   Transportation Security Operations Center




                 Review of Allegations Regarding San Francisco International Airport
                                                                                       Audit
OIG                                                                                    Report
Department of Homeland Security
Office of Inspector General

Executive Summary
               This report presents the results of our review of allegations that Transportation
               Security Administration (TSA) officials at San Francisco International Airport
               (SFO) covered up known security breaches at SFO and compromised Office of
               Inspector General (OIG) covert security testing. We conducted this review at
               the request of TSA management, as a result of preliminary findings by TSA’s
               Office of Internal Affairs and Program Review (OIAPR). Our objectives were
               to determine (1) whether TSA management at SFO complied with TSA policy
               and procedures for identifying and reporting security incidents; and (2) whether
               and to what extent covert security testing has been compromised at SFO and if
               so, who was responsible for those actions.
               Generally, SFO management complied with TSA policy and procedures when
               identifying and reporting security incidents. However, we identified one
               uncontrolled security incident, in which SFO failed to report in TSA’s
               Performance and Results Information System (PARIS). Although TSA
               management at SFO could not explain why the incident was not reported, we
               identified no evidence that management acted intentionally to cover up or
               misreport security incidents. We confirmed the allegation that TSA and
               Covenant Aviation Security (CAS) officials at SFO compromised OIG covert
               security testing between August 2003 and May 2004 by tracking testers
               throughout the airport via surveillance cameras and on foot, and then notifying
               screening personnel in advance of testers arriving at checkpoints. In May 2004,
               CAS management, along with TSA management at SFO, issued directives that
               all compromising activity surrounding covert security testing was to stop. We
               referred the matter of TSA’s involvement in compromising covert security
               testing to our Office of Investigation.
               We are recommending that TSA direct the Federal Security Director (FSD) at
               SFO to ensure that appropriate members of his staff are trained in and have a
               thorough knowledge of the guidelines for reporting security incidents to TSA
               headquarters through PARIS and the Transportation Security Operations Center
               (TSOC). Also, we recommend that TSA establish and promulgate policy to
               regulate its actions in response to authorized covert security testing of
               checkpoints. TSA concurred with one recommendation; partially concurred
               with the other, and has taken actions to resolve both.



                 Review of Allegations Regarding San Francisco International Airport
                                               Page 1
Background
                           On November 19, 2001, the President signed the Aviation and Transportation
                           Security Act (ATSA) that created TSA. ATSA, in part, required TSA to
                           implement a two-year private security screening pilot program. On
                           October 11, 2002, TSA awarded CAS a contract to provide security screening
                           at SFO.

                           In November 2004, a CAS security screener at SFO sent a letter containing
                           various allegations to CAS and TSA management. In January 2005, TSA’s
                           OIAPR investigated six allegations and determined that two of them had some
                           merit. Specifically, (1) TSA officials were covering up known security
                           breaches at SFO by classifying “serious breaches” as “mere incidents;” and
                           (2) TSA and CAS officials were compromising OIG and OIAPR covert
                           security tests by broadcasting tester descriptions and methodologies to all
                           screening areas.

                           In February 2005, TSA management recommended that, due to the critical
                           nature of OIAPR’s investigation results, the allegations be referred to the OIG
                           for review. As a result, OIAPR transferred all relevant working papers and
                           statements collected during the course of its review to the OIG’s Office of
                           Audits.

                           TSA’s AVO 400.18.1-1B: Reporting Security Incidents directs Federal
                           Security Directors (FSDs) or their designees to report all security incidents, as
                           defined within this directive, that occur at their airports. These reports are to
                           be submitted to TSA headquarters through PARIS.1 To ensure that consistent,
                           accurate, and timely information is reported, each FSD is directed to instruct
                           the appropriate staff members to collect the information required under this
                           AVO. The FSD or his/her designee is directed to review and approve each
                           report within 24 hours and submit it to TSA headquarters through PARIS.

                           This AVO contains 28 types of security incidents. Each incident type is
                           defined and has minimal examples to assist in categorizing the incidents. One
                           such category is a breach of security checkpoint. TSA’s AVO 400.50.1-25:
                           Security Breach at Passenger Screening Checkpoint: Revised Guidance
                           contains the definition of what constitutes a security breach, procedures for
                           managing the response to a potential or actual security breach, training for
                           those involved, and coordination with local authorities. This AVO provides
                           the following definitions:

                               •    Security Breach - when a person enters the sterile area without
                                    submitting to all screening and inspection of his or her person and
1
  PARIS is a TSA database application that tracks information about security incidents at the nation’s airports. In
addition to the PARIS reporting, some security incidents in this directive are marked to indicate that they must also be
reported immediately by telephone to TSOC.
                           Review of Allegations Regarding San Francisco International Airport
                                                         Page 2
        accessible property in accordance with the procedures being applied to
        control access to the sterile area.
    •   Uncontained Security Breach - situation where security personnel and
        law enforcement are not able to continuously monitor and respond to
        the uncleared person or item in the sterile area.

FSDs and their staffs must pay particularly close attention to the definitions of
the incident type to ensure consistent reporting nationally. Consistent,
accurate, and timely reporting on the number and nature of security incidents
is important because TSA uses this information in lawsuits, civil enforcement
actions, and criminal prosecutions, as well as to disseminate information to
other TSA components. Reporting security incidents also serves to:

    •   Alert TSA management to potentially dangerous or high-profile events
        requiring crisis management or responses to media or congressional
        inquiries;
    •   Allow trend and link analyses of security-related incidents at each
        airport, within each TSA area and nationwide; and
    •   Identify new security threats, problem passengers, suspicious
        activities, or new ways to artfully conceal prohibited items.




Review of Allegations Regarding San Francisco International Airport
                              Page 3
    Results of Review

           SFO Management Generally Complied With TSA Procedures When
           Identifying and Reporting Security Incidents

                           SFO management generally complied with TSA policy and procedures when
                           identifying and reporting security incidents. However, the guidelines and
                           definitions in AVO 400.18.1-1B: Reporting Security Incidents, dated
                           May 12, 2004, are broad in scope and allow FSDs flexibility in categorizing
                           security incidents and the resultant reporting. Also, we determined that only
                           one of the five incidents which OIAPR determined to be a security incident in
                           their investigation was actually a reportable security incident, and should have
                           been reported to TSA headquarters through PARIS.

                           TSA Incident Identification and Reporting Guidance is Subject to
                           Interpretation

                           According to AVO 400.18.1-1B, all FSDs or their designees are required to
                           report all security incidents that occur at their airports within 24 hours through
                           PARIS. Additionally, uncontained security breaches must be reported
                           immediately by telephone to the TSOC.2 All FSDs or their designees must
                           review and approve PARIS reports before they are submitted. FSDs and their
                           staffs are directed to pay particularly close attention to the definitions of the
                           incident type to ensure consistent reporting nationally.

                           This AVO identifies 28 types of security incidents. Within each incident type,
                           there is a definition and minimal examples to assist in categorizing the
                           incidents. The definitions of some security incident types are broad and allow
                           for a degree of flexibility by the FSD. However, this broad scope means that
                           TSA management at SFO, or any airport, is unable to be absolute in its
                           determination of the type of security incident represented by the event and
                           how the incident should be reported. For example, Breach of Security
                           Checkpoint is defined as an incident in which an individual breaches a
                           security checkpoint, whether intentionally or inadvertently, without proper
                           screening. Improper or No Screening is defined as incidents involving a
                           screener who fails to screen a passenger or does so improperly. If a passenger
                           sets off the alarm and the screener does not resolve the alarm, the question
                           becomes which category applies: a Breach of Security Checkpoint based on a
                           passenger inadvertently breaching security without proper screening; or,
                           Improper or No Screening as screener error for failure to resolve the alarm?
                           According to TSA management, this results in a wide disparity in reporting
                           among airports.
2
  The TSOC is TSA’s single point of contact for security-related operations, incidents, or crises in aviation and all land
modes of transportation. An uncontained security breach occurs when an individual passes through a security
checkpoint without proper screening, whether intentionally or inadvertently, where visual control has been lost.
                           Review of Allegations Regarding San Francisco International Airport
                                                         Page 4
After OIAPR’s review, which focused in part on the reporting of security
incidents at SFO, the SFO Deputy Federal Security Director (DFSD) solicited
the opinion of an Aviation Operations subject matter expert at TSA
headquarters to confirm interpretation of the AVO. The DFSD found that
SFO’s interpretation was in agreement with TSA’s expert opinion regarding
the identification and reporting of security breaches to the TSOC. Following
this inquiry, the DFSD sent a memorandum to Aviation Operations at TSA
headquarters to formally request clarification of the definition and intent of
the AVO for reporting security incidents. Aviation Operations management
officials stated they would develop a decision matrix of various breach
scenarios to assess the risks associated with each of the scenarios and identify
appropriate responses. This matrix will assist FSDs in being able to determine
what should and should not be reported as a breach.

Screening and Regulatory Divisions are Tasked with Identifying and
Reporting Security Incidents at SFO

AVO 400.18.1-1B also directs FSDs to instruct the appropriate staff members
to collect the information required to satisfy the reporting requirement under
this AVO, according to the incident type. Since the screening function at SFO
was federalized in 2002, the Screening Division has been tasked with
responding to and collecting the information surrounding security incidents.
However, the various duties associated with preparing the template used to
report security incidents in PARIS have fluctuated between the Screening
Division and the Regulatory Division. According to TSA management, the
responsibility for compiling the information needed to complete the template,
which includes categorizing the incident, inherently lies with the Regulatory
Division. The Regulatory Division is responsible for all matters concerning
enforcement and compliance with security directives pertaining to airport and
aviation security. However, when the screening function at SFO became a
federal responsibility, the Regulatory Division did not have sufficient staff to
handle all of the reporting responsibilities associated with the volume of
reportable security incidents. Therefore, the Screening Division was tasked
with a major share of these time-consuming responsibilities.

The Regulatory Division has always been responsible for reviewing,
approving, and submitting security incident reports to PARIS and the TSOC
when applicable. In August 2004, following an increase in staffing, the
preparation of the reporting template, which includes identifying incident
types, was shifted to the Regulatory Division.

In June 2005, preparation of the PARIS reporting template on routine
prohibited items such as box cutters and knives with blades three inches or
longer, was shifted back to the Screening Division at SFO. This occurred
when the SFO DFSD became aware, in January 2005, that SFO was not
Review of Allegations Regarding San Francisco International Airport
                              Page 5
properly reporting in PARIS a portion of the prohibited items confiscated,
namely box cutters and knives with blades three inches or longer, as required
in the AVO. SFO had been properly reporting these items in the Performance
Measurement Information System (PMIS). The number of items confiscated
in this category has caused a large increase in staff-hours to report them in
PARIS. As a result, SFO shifted this specific incident responsibility to the
Screening Division. The remainder of the PARIS reporting responsibilities
remains with the Regulatory Division.

One Security Incident in OIAPR’s Sampling Was Not Reported in
PARIS

In its initial investigation, OIAPR found that five incidents recorded in CAS
Safeskies (an online journal), within a five month sampling period from June
2004 to October 2004, appeared to meet the definition of a security breach as
set forth in AVO 400.50.1-25 and had not been reported in PARIS. However,
we determined that only one of these incidents should have been reported to
TSA headquarters through PARIS.

Safeskies is an online journal maintained by CAS to document certain events,
including security incidents, occurring at SFO. This online journal is
maintained by staff in the Screening Control Center (SCC) at SFO to provide
CAS corporate management in Illinois access to information regarding events
as they occur at SFO. Safeskies entries cannot be edited, and sometimes
contain only initial descriptions of incidents. The entries do not include
follow-on measures used in resolving the incident.

TSA management at SFO is responsible for all operational reporting to TSA
headquarters. They use their internal system for collecting information at the
screening checkpoints on security incidents. Under this system, the FSD and
the DFSD are always briefed on significant security incidents. Each
Screening and Operations Manager prepares a daily log detailing all important
activities, including security incidents, occurring on their shift. The daily logs
from each terminal are compiled into a document known as the Daily Incident
Report.

These reports are delivered every morning to all TSA senior management and
key personnel at SFO for their review. This review provides an opportunity to
correct any incident identification errors or notification oversights made by
the Screening Division and the Regulatory Division. Since a security screener
made the allegations of misreporting in November 2004, implementation of
reporting checklists and emphasis on closer reviews has reinforced this
internal review process.

We determined that the five security incidents identified by OIAPR in their
initial investigation, as recorded in CAS Safeskies but not reported in PARIS,

Review of Allegations Regarding San Francisco International Airport
                              Page 6
were also recorded in the Screening Division’s Daily Incident Reports. We
reviewed the five incidents as detailed in these Daily Incidents Reports and
determined that four of the five security incidents were not reportable security
incidents within the definition provided in AVO 400.18.1-1B. One security
incident was an uncontained security breach, as the result of a screener failing
to complete secondary screening. As such, it should have been reported to
TSA headquarters through PARIS and to the TSOC.

After reviewing the videotape, at or near the time of the incident, two senior
TSA Screening Division management officials and the responding TSA
Screening Manager identified this one security incident as an uncontained
security breach, and therefore, reportable under the AVO. However, the
incident was not reported to TSA headquarters through PARIS or by phone to
the TSOC. Screening Division management could not explain why the
incident was not reported, but suggested that it may have been an
administrative oversight. We did not identify any evidence to suggest that any
Screening Division personnel acted to withhold notification of this incident
intentionally. However, we determined that, based on the facts surrounding
the incident, it should have been reported to TSA headquarters through PARIS
and to the TSOC. In addition, as the senior responding official, the Assistant
Federal Security Director (AFSD) for Screening had the specific
responsibility for ensuring that the incident was reported. The FSD agreed
with this determination.

Recommendation 1: We recommend that TSA direct the SFO FSD to ensure
that appropriate members of its staff are trained in and have a thorough
knowledge of the guidelines for reporting security incidents to TSA
headquarters through PARIS and the TSOC.

Management Comments and OIG Analysis

TSA concurred with our recommendation. The FSD at SFO issued a local
directive in November 2005 detailing the process for reporting security
incidents at SFO, and the training program established to ensure that all staff
personnel have a thorough knowledge of reporting requirements through both
PARIS and the TSOC.

In addition, a TSA Operations Directive issued in August 2005 provides the
requirements for reporting security incidents to the TSOC. Both directives are
provided to all TSA and contractor management personnel during new-hire
training.

We have determined that the actions TSA has taken are responsive to our
recommendation that SFO staff be trained in, and have a thorough knowledge
of, the guidelines for reporting security incidents to TSA headquarters through


Review of Allegations Regarding San Francisco International Airport
                              Page 7
           both PARIS and the TSOC. Therefore this recommendation is resolved and
           closed.

Covert Security Testing at SFO Was Compromised
           Under the direction of TSA and CAS management at SFO, SCC personnel
           compromised OIG and OIAPR covert security testing between August 2003
           and May 2004 by tracking testers throughout the airport via surveillance
           cameras and on foot. Then they notified screening personnel in advance when
           a tester was approaching a checkpoint and provided their descriptions.
           Broadcasting descriptions and locations of testers to screening checkpoints
           impedes the testing and distorts the results of OIG audits. As a result, the
           need for changes in policies, additional training of screeners, and additional
           staffing as well as equipment inadequacies may not be revealed. At the end of
           our fieldwork, TSA had not published guidance to regulate how TSA airport
           management and screening personnel should respond to authorized covert
           security testing of any airport screening procedures or facilities. We referred
           the matter of TSA’s SFO management involvement in compromising covert
           security testing to our Office of Investigation. A chronology of events,
           including covert security testing dates, occurring at SFO is provided as
           Appendix C.

           During the period August 2003 to January 2005, TSA and CAS officials at
           SFO notified CAS personnel in the SCC of the start of covert security testing
           and directed them to notify checkpoint-screening supervisors that covert
           security testing was beginning. The DFSD established this practice after
           local news media personnel conducted unauthorized security tests at SFO’s
           passenger screening checkpoints on February 26, 2003. The news media
           conducted these tests following a serious breach at SFO, which occurred
           February 6, 2003, and resulted in the evacuation of SFO’s largest terminal.
           This affected more than 40 scheduled flights at an estimated cost of $800,000.

           According to TSA SFO management, they wanted the SCC to exercise
           command and control over the checkpoints to provide immediate reaction and
           communication for breach control. Therefore, management directed that the
           cameras be trained on testers. In this process, TSA SFO management
           encouraged SCC controllers to use the cameras in such a way as to allow them
           to maintain visual contact from one surveillance area to next. For example,
           tracking of a subject is accomplished by switching from camera to camera by
           typing in the number of the camera in the next area. The SCC controllers
           must know the cameras by number and which areas they control to track a
           subject quickly.

           When necessary, they are able to pull a videotape of an incident and have it
           ready for viewing by TSA SFO management within approximately two
           minutes.
            Review of Allegations Regarding San Francisco International Airport
                                          Page 8
In addition to tracking testers by CCTV, the SCC broadcasted descriptions
and locations of testers to the checkpoints to assist the supervisors in
identifying testers and to facilitate passing the covert penetration tests. The
ability to broadcast this information was made possible by the extensive
CCTV network available in the SCC at SFO.

SFO TSA management stated that they did not instruct CAS personnel to
broadcast descriptions of testers, test methodologies, or locations of testers to
the checkpoints. They stated that if this was done, it was the sole work of
CAS employees, without any input from SFO TSA management. However,
CAS officials and personnel provided evidence that the verbal directives to
broadcast descriptions and locations of testers came from a member of SFO
TSA management.

The advance notification regarding locations and descriptions of covert
security testers continued until May 2004, when a CAS employee in the SCC
refused to provide the descriptions and locations of testers and urged CAS
management to intervene. CAS management then directed its personnel to
cease all such compromising activity immediately. Senior CAS officials also
secured TSA management’s agreement to ensure that all compromising
activity by TSA personnel was stopped.

However, notification of checkpoint supervisors of the start of covert security
testers continued until January 2005. After the January 2005 tests by the OIG,
the DFSD established a new protocol regarding SFO’s response to covert
security testing. Under this new protocol, TSA will inform the SCC when
covert security testing is beginning; however, the SCC is prohibited from
notifying the checkpoint screening supervisors that covert testing has begun.

Recommendation 2: We recommend that TSA establish policy to clarify
TSA airport management and airport screening contractors’ interaction with
covert security testers.

Management Comments and OIG Analysis

TSA concurred in part with our recommendation. TSA believes that there is
already policy in place to address the improper dissemination of official and
sensitive information, which covers covert testing. A Human Resources
Management Policy Letter provides the means to hold FSDs and other TSA
personnel accountable for disclosing information about covert testing at an
airport.

Because of SFO’s unusual nature in having a contractor screening force and a
sophisticated camera surveillance system, TSA and the contractor issued
directives in May 2004 to stop all activity that could compromise the integrity

Review of Allegations Regarding San Francisco International Airport
                              Page 9
of covert security testing. TSA management at SFO issued another protocol
in January 2005 that prohibits any notification to screening checkpoints that
covert testing is being conducted.

We accept TSA’s response to our recommendation and consider the
recommendation resolved and closed.




Review of Allegations Regarding San Francisco International Airport
                             Page 10
Appendix A
Purpose, Scope and Methodology


                  We conducted this review at the request of TSA management, in response to
                  allegations related to the reporting of security incidents, and actions taken to
                  compromise OIG covert testing at San Francisco International Airport.

                  The objectives of the audit were to:

                    •   Determine how security incidents are identified and reported at SFO and
                        whether those procedures are consistent with TSA policy.
                    •   Determine whether and to what extent covert security testing has been
                        compromised at SFO and identify who was involved in these actions.

                  To accomplish our review, we conducted fieldwork at TSA headquarters in
                  Arlington, Virginia, and at San Francisco International Airport and their off-
                  site facilities in Southern San Francisco, California. We reviewed TSA’s
                  Aviation Operations Directives, Screening Checkpoint Standard Operating
                  Procedures, and other relevant documentation pertaining to the identification
                  and reporting of security incidents and the covert security testing process. We
                  also received a briefing from the OIAPR investigative team to obtain their
                  insights and comments regarding the allegations.

                  To obtain a thorough understanding of security incidents and covert security
                  testing policies and procedures, we interviewed key TSA officials, including
                  the Acting Deputy Assistant Secretary; the Assistant Administrator of
                  Aviation Operations; the Program Executive, Screening Partnership Program;
                  Program Analyst, Screening Partnership Program; Chief of Staff, Human
                  Resources; Manager, Screening Outreach Programs, Office of Aviation
                  Programs; and members of the OIAPR review team. At SFO, we interviewed
                  the TSA Western Area Director and FSD; Deputy FSD; Director, Western
                  Area Staff; Assistant FSD, Screening; Deputy Assistant FSD, Screening;
                  Assistant FSD, Regulatory; Deputy Assistant FSD Regulatory; TSA Security
                  Engineer; Aviation Security Inspectors; Screening Managers, and other TSA
                  staff.

                  At SFO, we also interviewed key CAS officials, including the President;
                  Executive Vice President; Vice President and General Manager; Vice
                  President, Human Resources; Director of Operations; Deputy Director of
                  Operations; Director of Training; Terminal Manager; SCC Supervisors; a
                  Customer Service Specialist; Checkpoint Screening Supervisors; and other
                  CAS staff.

                  We analyzed work papers and other relevant documents transferred from
                  OIAPR. We toured and observed various terminals, screening checkpoints,
                  and the SCC at SFO.

                   Review of Allegations Regarding San Francisco International Airport
                                                Page 11
Appendix A
Purpose, Scope and Methodology



                  We conducted fieldwork between May 2005 and October 2005 under the
                  authority of the Inspector General Act of 1978, as amended, and according to
                  generally accepted government auditing standards. A listing of the major
                  contributors to this report is included in Appendix C.




                   Review of Allegations Regarding San Francisco International Airport
                                                Page 12
Appendix B
Management Comments to the Draft Report

x




                  Review of Allegations Regarding San Francisco International Airport
                                               Page 13
Appendix B
Management Comments to the Draft Report




                  Review of Allegations Regarding San Francisco International Airport
                                               Page 14
Appendix B
Management Comments to the Draft Report




                  Review of Allegations Regarding San Francisco International Airport
                                               Page 15
Appendix B
Management Comments to the Draft Report




                  Review of Allegations Regarding San Francisco International Airport
                                               Page 16
Appendix C
Chronology of Events



                   The following is a chronology of events related to covert security testing
                   conducted at SFO by OIG and OIAPR testers.

                   Nov. 19, 2001          Public Law 107-71 creates TSA and requires a pilot
                                          program where the screening of passengers and
                                          property will be performed by private screening
                                          parties.

                   Jun. 18, 2002          TSA announces that five airports would be participating in
                                          the pilot program.
                   Oct. 10-11, 2002 TSA awards contracts for the Private Screening Pilot
                                    Program. Covenant Aviation Security received
                                    contract for airport at San Francisco, CA.

                   Nov. 19, 2002         Start of pilot program screening for passengers at airports.

                   Feb. 6, 2003           Security Breach, Terminal 3

                   Feb. 26, 2003          ABC News Media testing

                   Mar. 17-18, 2003 OIAPR Testing

                   Mar.-Apr. 2003         Screening Control Center with CCTV enhanced

                   Aug. 20-22, 2003 DHS-OIG Testing

                   Sept. 8-9, 2003        OIAPR Testing

                   Sept. 22, 25, 2003 OIAPR Testing

                   May 17-18, 2004 OIAPR Testing

                   Aug. 30, 2004         OIAPR Testing

                   Sept. 13, 2004        OIAPR Testing

                   Nov. 22, 2004         Screener’s letter of allegations received

                   Nov. 24, 2004         President, CAS, letter to FSD, SFO (regarding ceasing all
                                         compromising activity)

                   Jan. 12-14, 2005      DHS-OIG Testing
                   Feb. 18, 2005         Screener files Wrongful Firing Lawsuit
                   Review of Allegations Regarding San Francisco International Airport
                                                Page 17
Appendix D
Major Contributors to this Report


                    Alexander Best, Director, Transportation Security Audit Division
                    James Yeager, Audit Manager
                    Leigh Johnson-Steele, Auditor-In-Charge
                    Gary Alvino, Program Analyst




                  Review of Allegations Regarding San Francisco International Airport
                                               Page 18
Appendix E
Report Distribution


                      Department of Homeland Security
                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Policy
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Assistant Secretary for Public Affairs
                      DHS GAO/OIG Liaison
                      DHS OIG Liaison, TSA
                      Chief Privacy Officer


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as appropriate




                  Review of Allegations Regarding San Francisco International Airport
                                               Page 19
Additional Information and Copies


To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.



OIG Hotline


To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
